OIG Audit Report GR-30-01-005
Office of Community Oriented Policing Services
Grants to the Worcester County, Maryland 
Sheriff's Department
Snow Hill, Maryland
Audit Report GR-30-01-005May 11, 2001
Office of the Inspector General

Executive Summary
The Office of the Inspector General, Audit Division, has completed an audit of a grant awarded by the Office of Community Oriented Policing Services (COPS) to the Worcester County Sheriff's Department (Grantee).  The purpose of the grant is to enhance community policing.  The grantee was awarded a total of $515,583 to hire 7 new sworn officers. 

	We reviewed the grantee's compliance with six essential grant conditions.  Generally, the grantee complied with the requirements relating to budgeting for officers, hiring of officers, local matching funds, retention efforts and community policing.  However, we found a weakness in the area identified below.  As a result, we question $6,538. 1

The grantee was reimbursed for more costs than it incurred because it used estimated, rather than actual, rates to charge fringe benefits to the grant.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I. 


Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.